OIG Investigative Reports, Charges Added to Indictment in Bribery Scheme Related to the Issuance of Boston Hackney Licenses
Skip to main contentAbout UsContact UsFAQs Language Assistance Englishespañol中文: 繁體版Việt-ngữ한국어TagalogРусский
U.S. Department of Education
Search for:
Toggle navigation
U.S. Department of Education
Student Loans
Grants
Laws
Data
About ED
OFFICES
Home
Reports & Resources
Programs/Initiatives
News
Office Contacts
Investigative Reports
United States Department of Justice
Michael J. Sullivan
U.S. Attorney
District of Massachusetts
United States Attorney's Office
John Joseph Moakley U.S. Courthouse
1 Courthouse Way, Suite 9200
Boston, MA 02210
Press Office: (617) 748-3139
October 29, 2004
PRESS RELEASE
CHARGES ADDED TO INDICTMENT IN BRIBERY SCHEME
RELATED TO THE ISSUANCE OF BOSTON HACKNEY LICENSES
Boston, MA. Additional charges were brought yesterday in Federal
Court against a Dorchester woman, who was charged with mail fraud, wire fraud
and conspiracy in connection with federal student loans and grants.
United States Attorney Michael J. Sullivan; Kenneth W. Kaiser,
Special Agent in Charge of the Federal Bureau of Investigation in New England;
Joseph A. Galasso, Special Agent in Charge of the U.S. Internal Revenue Service,
Criminal Investigation; and Gary E. Mathison, Special Agent in Charge of the
Office of Inspector General, U.S. Department of Education, Boston Division,
announced that sixteen new charges were added to a previously existing indictment
charging NEGISTI MEDHANIE, age 52, of 97 Fuller Street, Dorchester, Massachusetts.
Specifically, the new charges are: six counts of mail fraud, nine counts of
wire fraud, and one count of conspiracy (in addition to charges previously
filed).
The new counts of the indictment allege that MEDHANIE failed
to disclose ownership of two taxi companies, a restaurant, and other financial
resources, as well as income received from these businesses and other sources,
on financial aid forms submitted in connection with her son's studies at Stanford
University. MEDHANIE was charged in the original indictment in this case in
May of 2003, along with two others, Pyotr Vaserman and Semyon Teperman.
The original indictment, that the new counts have been added
to, charged the defendants with bribery, money laundering, mail fraud and
bank fraud as part of a pattern of racketeering activity which they conducted
within the Hackney Unit of the Boston Police Department where MEDHANIE was
a civilian employee at the time. The indictment alleges that between approximately
1990 and 1999, Vaserman and Teperman were "bagmen" for MEDHANIE,
receiving bribes on her behalf from a number of individuals in amounts ranging
from $500 to $5,000. It is alleged that in exchange for the bribery payments,
MEDHANIE would issue taxi drivers' licenses to those individuals paying the
bribes even though they either had not taken or could not pass the required
hackney driver's examinations.
It is alleged that some of the bribe money paid to MEDHANIE
was used to purchase two taxi medallions in the name of a "straw"
owners; one of the "straws" was MEDHANIE's son.
If convicted on these new charges, MEDHANIE faces up to 20
years' imprisonment on each of the mail and wire fraud counts, and 5 years'
imprisonment on the conspiracy count, to be followed by 3 years of supervised
release, and a $250,000 fine, on each count of the indictment.
The charges against MEDHANIE's co-defendants, Pyotr Vaserman,
age 43, of 85 Brainard Road, Allston, Massachusetts, and Semyon Teperman,
age 56, of 121 Deborah Road, Newton, Massachusetts, are also still pending.
The case was investigated by the Federal Bureau of Investigation,
the U.S. Internal Revenue Service, Criminal Investigation; and the Office
of Inspector General, U.S. Department of Education with assistance from the
Boston Police Department. It is being prosecuted by Assistant U.S. Attorneys
Jeffrey Auerhahn and Cynthia Young in Sullivan's Organized Crime Strike Force
and Appeals Units, respectively.
Press Contact: Samantha Martin, (617) 748-3139
Top
Printable view
Share this page
Last Modified: 03/03/2005
How Do I Find...
Student loans, forgiveness
College accreditation
No Child Left Behind
FERPA
2015 Budget Proposal
FAFSA
More >
Information About...
Transforming Teaching
Family and Community Engagement
Early Learning
K-12 Reforms
More >
Connect
Facebook
Twitter
YouTube
Email
RSS
Google+
More >
MISUSED
FOIA
OIG Fraud Hotline
Our mission is to promote student achievement and preparation for global competitiveness by fostering educational excellence and ensuring equal access.
Student Loans
Repaying Loans
Defaulted Loans
Loan Forgiveness
Loan Servicers
Grants & Programs
Apply for Pell Grants
Grants Forecast
Open Grant Competitions
Find Grant Programs by Eligibility
Laws & Guidance
No Child Left Behind
IDEA
Civil Rights
Significant Guidance
Data & Research
Education Statistics
Integrated Postsecondary Education Data System
Nation's Report Card
What Works Clearinghouse
About Us
Contact Us
Jobs
News
FAQs
Budget, Performance
Notices FOIAPrivacySecurityInformation qualityInspector GeneralWhitehouse.govUSA.govBenefits.govRegulations.gov